      Department of Homeland Security





           Major Management Challenges Facing the 

               Department of Homeland Security 





OIG-13-09 (Revised)                         December 2012

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homel and Security



                                   DEC 2 1 2012

MEMORANDUM FOR :              The Honorable Janet Napolitano
                              Secretary

FROM:                        Charles K. Edwards
                             Acting Inspector Genera   c01~~      ~.
                                                                                        .


SUBJECT:                      Major Management Challenges
                              Facing the Department of Homeland Security

Attached for your information is our revised annual report, Major Management
Challenges Facing the Deportment of Homeland Security, for inclusion in the
Department of Homeland Security 2012 Annual Finan(ial Report. The original report
contained three incorrect footnotes; however we have corrected the three footnotes in
t he report. Please see the attdched erratd page for details.

Should you have any questions, please call me, or your staff may contact
Anne L. Richards, Assistant Inspector General for Audits, at (202) 254·4100.


Attachment
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                                



        Major Management Challenges Facing the 

                Department of Homeland Security 


The attached report presents our fiscal year 2012 assessment of the major management
challenges facing the Department. As required by the ReportsfConsolidationfActfoff2000
(Public Law 106-531), we update our assessment of management challenges annually.
As stipulated, the report summarizes what the Inspector General considers to be the
most serious management and performance challenges facing the agency and briefly
assesses the agency’s progress in addressing those challenges.
As in previous years, the Department’s major challenges are reported in broad areas.
For better understanding of how these areas relate to the overall operations of the
organization, they have been categorized into two main themes: Mission Areas and
Accountability Issues.


Mission Areas
   •   Intelligence
   •   Transportation Security
   •   Border Security
   •   Infrastructure Protection
   •   Disaster Preparedness and Response

Accountability Issues
   •   Acquisition Management
   •   Financial Management
   •   IT Management
   •   Grants Management
   •   Employee Accountability and Integrity
   •   Cyber Security




www.oig.dhs.gov                                1                                       OIG-13-09
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                           Mission Areas

Securing the Nation against the entire range of threats that we face in an evolving
landscape is a difficult task. The vision and purpose of the Department of Homeland
Security (DHS) is to ensure a homeland that is safe, secure, and resilient against
terrorism and other hazards where American interests, aspirations, and way of life can
thrive.1 At its establishment in 2003, the Department faced the challenge of building a
cohesive, effective, and efficient Department from 22 disparate agencies, while
simultaneously performing the mission for which it was created. As a whole, DHS has
made progress in coalescing into a more cohesive organization to address its key
mission areas to secure our Nation’s borders, increase our readiness, build capacity in
the face of a terrorist threat or a natural disaster, and enhance security in our
transportation systems and trade operations.


Intelligence
Overview
Intelligence is vital to DHS’ framework for securing the Nation. The development,
blending, analysis, and sharing of intelligence with appropriate Federal, State, local,
tribal, and territorial officials, as well as with private sector partners, must be timely and
well coordinated to effectively predict terrorist acts.

Department intelligence programs, projects, activities, and personnel, including the
intelligence elements of seven key DHS components, as well as the Office of Intelligence
and Analysis (I&A), make up the DHS Intelligence Enterprise. I&A is charged with
ensuring that intelligence from the DHS Intelligence Enterprise is analyzed, fused, and
coordinated to support the full range of DHS missions and functions, as well as the
Department's external partners. The components, most of which predate the creation
of the Department, have intelligence elements that provide support tailored to their
specialized functions and contribute information and expertise in support of the
Department's broader mission set.2



1
  http://www.dhs.gov/our-mission
2 Statement for the Record of Caryn A. Wagner, Under Secretary and Chief Intelligence Officer, Office of
Intelligence and Analysis, before the Subcommittee on Counterterrorism and Intelligence House
Committee on Homeland Security, "The DHS Intelligence Enterprise - Past, Present, and Future," June 1,
2011.



www.oig.dhs.gov                                         2                                             OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Challenges
Improving and enhancing support to fusion centers remains a challenge for the
Department. To promote greater information sharing and collaboration among Federal,
State, and local intelligence and law enforcement entities, State and local authorities
established fusion centers throughout the country. A fusion center is a collaboration of
two or more agencies to receive, gather, analyze, and disseminate information
intending to detect, prevent, investigate, and respond to criminal or terrorist activity.
The State and Local Program Office (SLPO), within the Office of Intelligence and Analysis,
is responsible for coordinating and ensuring departmental support to the National
Network of Fusion Centers.

In our fiscal year (FY) 2012 review, “DHS’fEffortsftofCoordinatefandfEnhancefItsfSupportf
andfInformationfSharingfwithfFusionfCenters,”fwe assessed: (1) whether the SLPO
satisfies the intent of DHS’ recommitment to the State, Local, and Regional Fusion Center
Initiative; (2) whether planned SLPO efforts will ensure coordinated support of DHS and
its components to provide needed information and resources to fusion centers; and (3)
if any functional or organizational challenges in DHS hinder its successful support of
fusion centers.

Accomplishments
DHS indicated that it has taken significant steps to improve the integration and
coordination of intelligence products and processes across the Department. An
enhanced analytic plan developed by I&A links data from disparate sources to help
identify unattributed cyber intrusions threatening Federal and private sector networks.
We determined that since July 2009, the SLPO has increased field support to fusion
centers, worked to improve fusion center capabilities, and engaged DHS components.
Efforts to develop a department-wide fusion center support strategy are ongoing, but
improvements are needed to enhance the I&A’s field deployments and DHS component
support.3




3
 DHS-OIG, DHS’fEffortsftofCoordinatefandfEnhancefItsfSupportfandfInformationfSharingfwithfFusionf
Centersf(OIG-12-10, November 2011).



www.oig.dhs.gov                                        3                                            OIG-13-09
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Transportation Security 

Overview
The Transportation Security Administration (TSA) is responsible for protecting the
transportation system and ensuring the freedom of movement for people and
commerce. The Nation’s economy depends upon secure, yet efficient transportation
security measures. Airport security includes the use of various technologies to screen
passengers and their baggage for weapons, explosives, and other prohibited items, as
well as to prevent unauthorized access to secured airport areas. As part of its
responsibility, TSA is required to assess and test airport security measures on an
ongoing basis to ensure compliance with policies and procedures and prevent security
breaches.

Challenges
In spite of TSA’s efforts, it continues to face challenges in passenger and baggage
screening, airport security, the Secure Flight Program, airport badging, passenger air
cargo security, training, as well as in providing oversight for the security of all modes of
transportation including rail and mass transit.

Aviation

In regard to passenger and baggage screening, the AviationfandfTransportationfSecurityf
Act requires TSA to prescribe requirements for screening or inspecting all passengers,
goods, and property before entry into secured areas of an airport. 4

In its review of airport security, DHS OIG conducted covert testing of airport access
controls as well as passenger and baggage screening. 5 Although test results are
classified, access control and checkpoint screening vulnerabilities were identified at the
domestic airports tested. Although Transportation Security Officers (TSO) were
ultimately responsible for not fully screening checked baggage, our audit identified
additional improvements that TSA can make in the evaluation of new or changed
procedures, and improvements in supervision of TSOs that could have mitigated the
situation.

In FY 2012, a congressional request led to a review of TSA’s policies and practices
governing its use of full-body x-ray screening equipment (general-use backscatter units)

4
    Public Law 107-71, November 19, 2001.

5
    DHS-OIG, (U)fCovertfTestingfoffAccessfControlsftofSecuredfAirportfAreas (OIG-12-26, January 2012).




www.oig.dhs.gov                                            4                                              OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


for airport security. Congressman Edward J. Markey was concerned about the safety of
the doses of radiation emitted by the units. TSA began deploying general-use
backscatter units in March 2010, with 247 units operating in 39 commercial airports
around the country at the time of publication of the FY 2012 backscatter unit report. In
the United States, an x-ray system is considered compliant with requirements for
general-purpose security screening of humans if it complies with standards of the
American National Standards Institute.

Independent radiation studies conducted by professional organizations concluded that
radiation levels emitted from backscatter units were below the acceptable limits. TSA
entered into interagency agreements for additional radiation safety surveys and
dosimetry measurement of the dose of radiation emitted by a radiation-generating
device monitoring studies to document radiation doses to agency personnel and
individuals being screened. All studies concluded that the level of radiation emitted was
below acceptable limits.

The Secure Flight Program was implemented in October 2008 in an effort to bolster the
TSA security directives established after the terrorist attacks of September 11, 2001.
Under this program, TSA receives specific passenger and non-traveler data from the
airlines and matches it against the government's watch list. TSA then transmits a
boarding pass, with results back to the aircraft operator, so a boarding pass can be
issued.

TSA relies on designated airport operator employees to process the badging
applications. A July 2011 audit report showed that individuals who pose a threat may
obtain airport badges and gain access to secured airport areas.6 We analyzed vetting
data from airport badging offices and identified badge holder records with omissions or
inaccuracies in security threat assessment status, birthdates, and birthplaces. These
problems existed because TSA did not: (1) ensure that airport operators had quality
assurance procedures for the badging application process; (2) ensure that airport
operators provided training and tools to designated badge office employees; and (3)
require Transportation Security Inspectors to verify the airport data during their
reviews.

Through passenger air cargo security, approximately 7.6 million pounds of cargo are
transported on passenger planes each day. The Code of Federal Regulations (49 CFR)
requires that, with limited exceptions, passenger aircraft may only transport cargo
originating from a shipper that is verifiably “known” either to the aircraft operator or to
the indirect air carrier that has tendered the cargo to the aircraft operator. Through
covert testing we identified vulnerabilities in cargo screening procedures employed by
6
 DHS-OIG, TSA’sfOversightfoffthefAirportfBadgingfProcessfNeedsfImprovementf(Redacted)f(OIG-11-95, July
2011).



www.oig.dhs.gov                                       5                                           OIG-13-09
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


air carriers and cargo screening facilities to detect and prevent explosives from being
shipped in air cargo transported on passenger aircraft.7 Although TSA has taken steps to
address air cargo security vulnerabilities, the agency did not have assurance that cargo
screening methods always detected and prevented explosives from being shipped in air
cargo transported on passenger aircraft.

 We conducted a review to determine how TSA identifies, reports, tracks and mitigates
security breaches at airports nationwide.8 We determined that TSA does not have
guidance for and oversight of the reporting process. This need for guidance resulted in
the agency missing opportunities to strengthen airport security. TSA agreed with the
recommendations in our report, and as a first step, is developing a standard definition
of a security breach. In addition, TSA is also updating its airport performance metrics to
track security breaches and airport checkpoint closures at the national, regional, and
local levels.

Rail and Mass Transit

Passenger rail stations are attractive terrorist targets because of the large number of
people in a concentrated area. Amtrak provides passenger rail service for nearly 27
million passengers every year, using approximately 22,000 miles of rail in 46 states and
the District of Columbia. Although grant recipients, such as Amtrak, transit agencies,
and State and local authorities, coordinated risk mitigation projects at high-risk rail
stations, Amtrak did not always use grant funds to implement mitigation strategies at
the highest risk rail stations, in terms of casualties and economic impact.9 Amtrak did
not mitigate critical vulnerabilities reported in risk assessments. These vulnerabilities
remain because TSA: (1) did not require Amtrak to develop a corrective action plan
addressing its highest ranked vulnerabilities; (2) approved Amtrak investment
justifications for lower risk vulnerabilities; and (3) did not document roles and
responsibilities for the grant award process.

Accomplishments
TSA has taken action as recommended by our audit and inspection work. For instance,
the agency began developing detailed utilization reports to ensure that the AIT units



7
  DHS-OIG, EvaluationfoffScreeningfoffAirfCargofTransportedfonfPassengerfAircraftf(OIG-10-119, 

September 2010). 

8
  DHS-OIG, TransportationfSecurityfAdministration’sfEffortsfTofIdentifyfandfTrackfSecurityfBreachesfatfOurf

Nation’sfAirports (OIG-12-80, May 2012).

9
  DHS-OIG, DHSfGrantsfUsedfforfMitigatingfRisksftofAmtrakfRailfStationsf(Redacted) (OIG-11-93,
June 2011).



www.oig.dhs.gov                                          6                                             OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


deployed are being used efficiently. TSA has also developed more training for TSOs,
which should help their performance.

Since the Secure Flight Program assumed responsibility for passenger prescreening, TSA
has provided more consistent passenger prescreening. The program has a defined
system and processes to conduct watch list matching. To ensure that aircraft operators
follow established procedures, the Secure Flight Program monitors records and uses its
discretion to forward issues for compliance investigation. The program also includes
privacy safeguards to protect passenger personal data and sensitive watch list records
and information. The Secure Flight Program focuses on addressing emerging threats
through multiple initiatives.

TSA issued a management directive giving the Operational and Technical Training
Division responsibility for overall management of the analysis, design, development, and
implementation of TSO training programs.

To identify and track security breaches better, TSA is refining the definition of what
constitutes such breaches and implementing a tool to provide more oversight in this
area. In addition, TSA is also updating its airport performance metrics to track security
breaches and airport checkpoint closures at the national, regional, and local levels.

TSA continues to work on improving operations, keeping us informed of the progress
made in response to our work.


Border Security
Overview
Securing the Nation's borders from illegal entry of aliens and contraband, including
terrorists and weapons of mass destruction, while welcoming all legitimate travelers and
trade, continues to be a major challenge. DHS apprehends hundreds of thousands of
people and seizes large volumes of illicit cargo entering the country illegally each year.
United States Customs and Border Protection (CBP) is responsible for securing the
Nation's borders at and between the ports of entry. Within CBP, the mission of the
Office of Border Patrol helps secure 8,607 miles of international borders.

Challenges
Although CBP has made progress in securing our borders, it continues to face challenges
in the areas of the Free and Secure Trade program (FAST), bonded facilities, unmanned
aircraft systems, and U.S. Visitor and Immigrant Status Indicator Technology (US-VISIT).


www.oig.dhs.gov                                 7                                      OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


FAST is a commercial clearance program for pre-enrolled commercial truck drivers
entering the United States from Canada and Mexico designed to facilitate the free flow
of trade. FAST allows for expedited processing of enrolled trusted travelers, including
FAST drivers who fulfill certain eligibility requirements. However, FAST’s eligibility
processes do not ensure that only eligible drivers remain in the program. CBP is
hampered in ensuring that Mexican citizens and residents in the program are low risk
because Mexico does not share Southern border FAST information with the United
States to assist in vetting and monitoring drivers’ eligibility. Although renewal is
required every 5 years, ineligible drivers may be actively enrolled in the program,
exposing the agency to increased risk of compromised border security.10

CBP is responsible for cargo security, including the accountability of the transfer to and
storage of cargo at privately owned and operated bonded facilities. Based on audited
background checks at 41 bonded facilities at five seaports, CBP did not have effective
management controls to ensure that bonded facility employees do not pose a security
risk at these facilities. Additionally, CBP neither issued national requirements for
background checks on employees of bonded facilities nor ensured that port directors
had management controls over background checks at these facilities. As a result,
background checks were inconsistent and often ineffective. This may put bonded
facilities at greater risk for terrorist exploitation, smuggling, and internal conspiracies.
CBP and United States Immigration and Customs Enforcement’s (ICE’s) Joint Fraud
Investigative Strike Teams conducted unannounced investigations of bonded facilities
resulting in the detention of more than 350 undocumented workers and workers with
outstanding arrest warrants.11

Unmanned aircraft systems help secure the Nation's borders from illegal entry of aliens,
including terrorists, and contraband, including weapons of mass destruction. These
long-endurance, medium-altitude remotely piloted aircrafts provide reconnaissance,
surveillance, targeting, and acquisition capabilities. CBP did not adequately plan
resources needed to support its current unmanned aircraft inventory. Although CBP
developed plans to use the unmanned aircraft’s capabilities, its Concept of Operations
planning document did not adequately address processes: (1) to ensure that required
operational equipment was at each launch and recovery site; (2) for stakeholders to
submit unmanned aircraft mission requests; (3) to determine how mission requests
were prioritized; and (4) to be reimbursed for missions flown for stakeholders. CBP risks
having substantially invested in a program that limits resources and its ability to achieve
Office of Air and Marine mission goals.12


10
  DHS-OIG, FreefandfSecurefTradefProgram-ContinuedfDriverfEligibility (OIG-12-84, May 2012).
11
  DHS-OIG, CBP’sfManagementfControlsfOverfBondedfFacilities (OIG-12-25, January 2012).
12 DHS-OIG, CBP’sfUsefoffUnmannedfAircraftfSystemsfinfthefNation’sfBorderfSecurity (OIG-12-85, May
2012).



www.oig.dhs.gov                                        8                                             OIG-13-09
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


CBP faces challenges in systematically identifying and flagging potential use of
fraudulent biographic identities in its US-VISIT system.13 An analysis of data showed
825,000 instances in which the same fingerprints were associated with different
biographic data. These differences ranged from misspelled names and transposed birth
dates to completely different names and birth dates. In some cases individuals may
have supplied different names and dates of birth at ports of entry; in others individuals
may have used different biographic identities at a port of entry after they had applied
for a visa under a different name or been identified as a recidivist alien. Inaccurate and
inconsistent information reduces the accuracy of US-VISIT data monitoring and impedes
the ability to verify that individuals attempting to enter the United States are providing
their true names and dates of birth.

Accomplishments
CBP indicated it continues to develop a streamlined and cost-effective process to be
used by port offices when conducting background vetting of bonded facility applicants,
officers and principals. This process will add significant oversight, tracking and reporting
capabilities to the background vetting process and will allow CBP to determine the
criminal history of any current or prospective bonded facility applicant. According to
CBP officials, US-VISIT has programs to identify individuals who may have overstayed
the condition of their visas and manually analyzes entry and exit data to associate
fingerprints with biographic information. Stronger oversight of this program will keep
better track of individuals entering the United States.


Infrastructure Protection

Overview
Protecting the Nation’s critical physical and cyber infrastructure is crucial to the
functioning of the American economy and our way of life. Critical infrastructure
provides the means and mechanisms by which critical services are delivered to the
American people; the avenues that enable people, goods, capital, and information to
move across the country. The Department leads the effort, in collaboration with
Federal, State, local, regional, and private sector partners, to enhance the protection
and resilience of critical infrastructure. Ensuring the security of our critical
infrastructure and key resources remains a great challenge.



13
  DHS-OIG, US-VISITfFacesfChallengesfinfIdentifyingfandfReportingfMultiplefBiographicfIdentitiesf(OIG-12-
111, August 2012).



www.oig.dhs.gov                                         9                                            OIG-13-09
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Challenges
Catastrophic failures in critical structures such as dams could affect more than 100,000
people and have economic consequences surpassing $10 billion. Yet, the Department
could not ensure that risk assessments of dams were conducted or that security risks
were identified and mitigated.14 Specifically, the Department did not review all critical
dam risk assessments conducted by other departments and agencies, did not conduct
security reviews at 55 percent of critical dams, and did not ensure completion of
corrective actions to mitigate risk were completed. Cooperation and collaboration with
its security partners is essential to DHS’ success in assessing risk and consequently,
protecting critical infrastructure such as dams. ThefNationalfInfrastructurefProtectionf
Plan prescribes a voluntary partnership between the government and the private sector
to manage such risks. The Department does not have the authority to require dam
owners to undergo security reviews or implement corrective actions.

DHS’ Federal Protective Service (FPS) is responsible for the safety and security of more
than 9,000 Federal facilities; the service employs 1,225 Federal staff members and uses
15,000 contracted security guards to carry out its mission. In August 2008, FPS funded a
$21 million, 7-year contract to develop and maintain the Risk Assessment and
Management Program (RAMP). RAMP was intended to assess and analyze risks to
Federal facilities and recommend and track countermeasures, as well as manage post
inspections, guard contracts, and guard certification compliance. However, in May
2011, FPS ceased development of RAMP because it was not cost effective and had not
met its original goals. In July 2011, the Government Accountability Office (GAO)
reported that RAMP’s actual costs were more than three times the original $21 million
development contract amount, the program was behind schedule, and the system could
not be used as intended to complete security assessments or guard inspections. The
contract was extended for 1 year to operate and maintain RAMP. Although FPS has
stopped its development, the system is still being used to manage its guard force, and it
contains historical data that FPS wants to retain and maintain. As of August 2012, FPS
had determined its data needs and was working with the RAMP vendor to preserve
historical documents and guard-related data. 15 DHS has completed data capture and
decommissioned RAMP.

Additionally, according to an August 2012 GAO report, FPS has not effectively led the
government facilities sector. 16 It has not obtained data on facilities or coordinated or
assessed risk, all of which are key to risk management and safeguarding of critical
14
   DHS-OIG, DHSfRiskfAssessmentfEffortsfinfthefDamsfSector (OIG-11-110, September 2011).
15
   DHS-OIG, FederalfProtectivefService’sfExercisefoffafContractfOptionfforfthefRiskfAssessmentfandff
ManagementfProgramf(OIG-12-67, August 2012).
16
   GAO, CriticalfInfrastructure:fDHSfNeedsftofRefocusfitsfEffortsftofLeadfthefGovernmentfFacilitiesff
Sectorf(GAO-12-852, August 2012).f



www.oig.dhs.gov                                          10                                             OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


facilities. Furthermore, FPS has not built effective partnerships across different levels of
government, needs a dedicated funding line for its activities in this area, and does not
have an action plan for protecting facilities.

Accomplishments
To improve protection of the Dams Sector, DHS is nearing completion of its OIG-
recommended assessment of the appropriateness of a legislative proposal to establish
regulatory authority for the Dams Sector assets similar to that in the Chemical Sector.
At the same time, the Department continues to make strides under the voluntary
framework. This includes 100 percent completion of Infrastructure Protection
assessments on privately-owned assets included on the FY 2011 Dams Sector critical
assets list.

In regard to RAMP, DHS indicated it has minimized FPS costs and saved the government
at least $13.2 million by stopping its development and paying the contractor only to
operate and maintain the program. FPS also leveraged existing technology to develop
the Modified Infrastructure Survey Tool nationwide. During the development, FPS
continuously monitored the security posture of Federal facilities by responding to
incidents, testing countermeasures, and conducting guard post inspections.
Additionally, FPS has taken actions to enhance its coordination with sector-specific
agencies for the government facilities sector. These include establishing new
relationships with the State, Local, Tribal and Territorial Government Coordinating
Council to ensure broader state and local participation in sector coordination
procedures.


Disaster and Preparedness Response

Overview
The Federal Emergency Management Agency’s (FEMA) task of coordinating emergency
support following disasters has become more challenging as the number of events to
which it responds has risen each year—from 25 to 70 since 1980. Additionally, FEMA
spends an average of $4.3 billion each year in its response efforts. Although the agency
has improved its disaster response and recovery, challenges remain.




www.oig.dhs.gov                                 11                                      OIG-13-09
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Challenges
FEMA faces challenges in determining whether to declare events Federal disasters.
FEMA uses preliminary disaster assessments to ascertain the impact and magnitude of
damage from disasters and the resulting needs of individuals, businesses, the public
sector, and the community. These assessments also help to determine whether events
become federally declared disasters. In May 2012, we reported that, in deciding
whether to declare an event a Federal disaster, FEMA used an outdated indicator that
did not accurately measure the ability of State and local governments’ to pay for
damages.17 If FEMA had updated the indicator, many recent disasters might not have
met the financial conditions for Federal assistance.

In September 2012, GAO also noted that FEMA needed to improve the criteria it used to
assess a jurisdiction’s ability to recover from disasters.18 In addition, GAO determined
that FEMA had no specific criteria for assessing requests to raise the Federal share for
emergency work to 100 percent. Finally, FEMA’s administrative costs frequently
exceeded its targets.

In evaluating FEMA’s disaster recovery in Louisiana, we determined that only 6.3
percent of Katrina-related Public Assistance projects had been closed in the 72 months
since the hurricane made landfall. 19 As of July 12, 2011, FEMA had obligated $10.2
billion in Public Assistance grants to support Louisiana’s recovery from Hurricane
Katrina. However, projects, especially time critical ones such as Debris Clearance and
Emergency Work, were years past the closeout deadlines. FEMA, state officials, and
subgrantees said the catastrophic damage was the major cause of delay in completing
and closing out the Public Assistance projects. According to some officials, delays were
also due to issues with the Federal Government’s commitment to reimburse Louisiana
for 100 percent of all Public Assistance project costs, FEMA’s project procurement
process, the agency’s Public Assistance decision-making, and Louisiana staff resources.
We recommended that FEMA develop project management policies, procedures, and
timelines for Public Assistance projects that are 100 percent federally funded,
coordinate with Louisiana and local governments to evaluate the status of Public
Assistance projects, and expedite project closures.

FEMA must have a trained, effective disaster workforce to carry out its mission. As part
of this effort, FEMA has a system to credential, or qualify and certify emergency

17
   DHS-OIG, OpportunitiesftofImprovefFEMA’sfPublicfAssistancefPreliminaryfDamagefAssessmentfProcess

(OIG-12-79, May 2012).

18
   GAO, FederalfDisasterfAssistance:fImprovedfCriteriafNeededftofAssessfafJurisdiction’sfCapabilityftoff

RespondfandfRecoverfonfItsfOwn (GAO-12-838, September 2012).

19
   DHS-OIG, EffortsftofExpeditefDisasterfRecoveryfinfLouisiana (OIG-12-30, January 2012).




www.oig.dhs.gov                                         12                                            OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


response providers through experience, training, and demonstrated performance. At
the time of our June 2012 audit, however, FEMA had not completely implemented a
credentialing program and had not identified an IT system to track the training,
development, and deployment of disaster employees.20 Additionally, the agency did not
provide a detailed IT plan, documented costs, project schedule, and capability and/or
performance requirements.

Our December 2011 audit report showed that some recipients of FEMA Public
Assistance grants did not comply with a requirement to obtain and maintain
insurance. 21 We also reported that States and FEMA could improve their monitoring
and oversight to ensure recipients satisfy this requirement and do not receive financial
aid for damages that are, or should be, covered by insurance. State and local
governments are encouraged to obtain insurance to supplement or replace Federal
Government assistance, but the Public Assistance program provides a disincentive to
carry insurance. Although FEMA has been aware of this issue for more than 10 years, it
has been slow to address it.

Providing the most efficient and cost-effective temporary post-disaster housing has
been a major challenge for FEMA. The deployment of a large number of such housing
after Hurricanes Katrina and Rita proved to be difficult. Later, some homes were found
to contain high levels of formaldehyde, which led to health problems for disaster
survivors. In the aftermath of these disasters, Congress provided FEMA funds to explore
options for mitigating future disaster housing issues, including $400 million for an
Alternative Housing Pilot Program and $1.4 million for the Disaster Housing Pilot
Project.22

In the Alternative Housing Pilot Program, it was determined that the units developed
were unlikely to match FEMA’s needs for temporary housing. The Disaster Housing Pilot
Project tested and evaluated 10 different types of housing units and provided options
for more cost-effective, future housing, but FEMA put the project on hold because of
inadequate funding. FEMA also terminated efforts to develop temporary housing units
without indoor air quality issues, although in 2011, these efforts had resulted in model
units with acceptable air quality levels. For future disasters, FEMA decided to house
displaced disaster victims exclusively in mobile homes built to Department of Housing
and Urban Development standards, which will eliminate many past problems. However,
these units will likely cost more, are not suitable for flood plains, and will not fit on most
urban home sites. The inability to use urban sites may hinder FEMA’s capability to

20
   DHS-OIG, FEMA’sfProgressfinfImplementingfEmployeefCredentials (OIG-12-89, June 2012). 

21
   DHS-OIG, FEMA’sfProcessfforfTrackingfPublicfAssistancefInsurancefRequirements (OIG-12-18, December

2011).

22
   DHS-OIG, FuturefDirectionsfoffFEMA’sfTemporaryfHousingfAssistancefProgram (OIG-12-20, December

2011).




www.oig.dhs.gov                                       13                                          OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


respond quickly to disasters because alternative sites are limited, take more time to
develop, and are frequently blocked by local communities. These sites are also much
more expensive than private sites.

Accomplishments
FEMA continues to work on improving preliminary disaster assessments and recovery
operations, keeping us informed of the progress made in response to our work. The
Disaster Housing Pilot Project was created to evaluate innovative housing options by
using them as student housing at a FEMA training facility. It is part of the effort to
identify and evaluate alternative means of housing disaster survivors as directed by the
Post-Katrina Act. Although the results of the evaluations are not yet complete, the
project is providing a cost-effective means of identifying and testing alternative housing
units.

FEMA is also pursuing data collection tools that will provide enhanced capabilities to
perform Preliminary Damage Assessments (PDA) and record information in an efficient
and consistent manner. FEMA is assessing the best available options for development
of such a tool for PDAs, based on efforts to explore development of such a tool and in
light of available technologies. Based on the findings of the assessment, FEMA plans to
develop and implement the improved PDA data collection tool in FY13. This will
improve PDA data collection, streamline the PDA process through use of an electronic
system for data collection and reporting, and enhance the effectiveness of the PDA
process.

According to FEMA, as of October 1, 2012, the FEMA Qualification System (FQS) became
operational. FQS establishes the system for qualification and certification of the FEMA
incident workforce through experience, training, and demonstrated performance.
Throughout the year, milestones have been met to implement this critical program
along with our other disaster workforce initiatives. While there will be continued
development and expansion of the program FQS has been implemented for the entire
incident management workforce.

FEMA is implementing other initiatives to improve disaster budgeting and program
management once a declaration has been made that will enhance FEMA’s ability to
manage and budget for expenditures from the Disaster Relief Fund.




www.oig.dhs.gov                                 14                                     OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



          Accountability Issues 

As the third largest agency in the Federal Government, DHS is responsible for managing
a large workforce, and significant Federal resources. DHS is responsible for an annual
budget of more than $59 billion, employs more than 225,000 employees and operates
in more than 75 countries. At its establishment in 2003, DHS faced building a cohesive
and efficient organization from 22 disparate agencies, while simultaneously performing
the critical mission for which it was created. As a whole, DHS has made progress in
coalescing into a more effective organization, establishing policies and procedures to set
the groundwork for effective stewardship over its resources but challenges remain.


Acquisition Management

Overview
Effective oversight and management of acquisition processes is vital to DHS. At the time
of our reporting in 2012, the Department had approximately 160 acquisition programs
with estimated life cycle costs of more than $144 billion. DHS’ acquisitions were
numerous, varied, and complex, including everything from ships, aircraft, and vehicles
to real estate, computer technology, and maintenance services.

Challenges
During FY 2012, both OIG and GAO conducted audits of acquisition management,
examining individual acquisition programs and the underlying policies and procedures.
We identified challenges the Department faces in the Secure Border Initiative. For
example, along the southwest border, CBP has spent $1.2 billion to construct physical
barriers as part of the Secure Border Initiative. As part of that effort, CBP did not
effectively manage the purchase and storage of steel for fence construction, which cost
about $310 million. It purchased steel before legally acquiring land or meeting
international treaty obligations. In addition, CBP did not provide effective contract
oversight, including not paying invoices on time and not reviewing the contractor’s
selection of a higher-priced subcontractor. As a result of these issues, CBP purchased
more steel than needed, incurred additional storage costs, paid interest on late




www.oig.dhs.gov                                15                                     OIG-13-09
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


payments, and approved a higher-priced subcontractor, resulting in expenditures of
nearly $69 million that could have been put to better use.23

A November 2011 GAO review of the subsequent southwest border strategy, the
Arizona Border Surveillance Technology Plan, showed that DHS did not document the
analysis justifying the specific types, quantities, and deployment locations of border
surveillance technologies proposed in the plan.24 Without documentation DHS was
hindered in its ability to verify that processes were followed, identify underlying
analyses, assess the validity of the decisions made, and justify the requested funding.

Acquisition and resource management will continue to be a challenge for the United
States Coast Guard (USCG) as it strengthens acquisition management capabilities and
develops acquisition program baselines for each asset. According to GAO, the approved
baselines for 10 of 16 programs did not reflect cost and schedule plans because
programs breached the cost or schedule estimates in those baselines, changed in scope,
or were not expected to receive funding to execute baselines as planned.25 According to
DHS, during 2012, two USCG program baselines were approved by DHS, two are pending
DHS approval, and one is in USCG routing.

Since 2003, under a program to replace its aging HU-25 Falcon fleet, the USCG has taken
delivery of 13 Ocean Sentry Maritime Patrol medium-range surveillance aircraft. In
most instances, the USCG awarded the Ocean Sentry Maritime Patrol aircraft contracts
effectively. However, it could have improved its oversight of the latest contract,
awarded in July 2010 to the European Aeronautic Defense and Space Company North
America for three aircraft valued at nearly $117 million. For this contract, the USCG was
aware of conclusions by the Defense Contract Audit Agency regarding non-chargeable
costs and noncompliance with the Federal Acquisition Regulation by the subcontractor,
European Aeronautic Defense and Space Company/Construcciones Aeronáuticas
Sociedad Anónima. The USCG was aware of the conclusions, and could have conducted
additional follow up to ensure that the subcontractor had implemented
recommendations made by the Defense Contract Audit Agency. The USCG also did not
obtain sufficient support to ensure it excluded non-chargeable costs when awarding the
latest contract.26




23
   DHS-OIG, U.S.fCustomsfandfBorderfProtection’sfManagementfoffthefPurchasefandfStoragefoffSteelfinf

SupportfoffthefSecurefBorderfInitiative (OIG-12-05, November 2011).

24
   GAO-OIG, ArizonafBorderfSurveillancefTechnology:fMorefInformationfonfPlansfandfCostsfIsfNeededf

BeforefProceeding (GAO-12-22, November 2012).

25
   GAO, CoastfGuard:fPortfoliofManagementfApproachfNeededftofImprovefMajorfAcquisitionfOutcomes

(GAO-12-918, September 2011). 

26
   DHS-OIG, U.S.fCoastfGuard’sfMaritimefPatrolfAircraft (OIG-12-73, April 2012).




www.oig.dhs.gov                                       16                                           OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


The Department continues to face challenges in integrating the 22 disparate legacy
agencies and these challenges have a direct effect on acquisition management
decisions. According to a September 2012 GAO report, DHS acquisition policy does not
fully reflect several key portfolio management practices, such as allocating resources
strategically, and DHS has not yet re-established an oversight board to manage its
investment portfolio across the Department.27 For example, there have been numerous
efforts to find efficiencies between CBP’s and USCG’s aviation fleets. The Secretary’s FY
2013 budget emphasized consolidating and streamlining systems and operations to
ensure cost savings. In a March 2012 hearing, the Secretary highlighted efforts to
increase the effectiveness of DHS’ aviation assets through increased coordination and
collaboration. In 2010, CBP and the USCG signed a joint strategy to unify their aviation
management information systems. However, as of July 2012, CBP planned to acquire a
new, separate IT system for its aircraft, which would continue past practices of
obtaining disparate systems that did not share information with other components,
including the USCG. We recommended that CBP terminate this planned acquisition and
transition its aviation logistics and maintenance tracking to the USCG’s system, in
accordance with the Secretary’s efficiency initiatives and the joint strategy. By
transitioning to the USCG’s system, CBP could improve the effectiveness of aviation
management information tracking and save more than $7 million.28

Accomplishments
According to DHS, it has made progress in improving program governance, increasing
insight into program performance, and building acquisition and program management
capabilities. DHS has implemented requirements for tiered acquisition program reviews
intended to increase its ability to identify and mitigate program risk. The Department
has also implemented a Decision Support Tool to provide visibility into program health
and has established Centers of Excellence to provide guidance.

In August, 2012, we reported that DHS was progressing toward the implementation of
an information technology infrastructure at the St. Elizabeth’s Campus in Washington,
DC.29 Specifically, DHS partnered with the General Services Administration to use its
interagency information technology contracting vehicles. The General Services
Administration also awarded a task order on behalf of DHS to acquire information
technology resources for the Technology Integration Program.



27
   GAO, DHSfRequiresfMorefDisciplinedfInvestmentfManagementftofHelpfMeetfMissionfNeedsf(GAO-12-
833, September 2012). 

28
   DHS-OIG, CBPfAcquisitionfoffAviationfManagementfTrackingfSystem (OIG-12-104, August 2012).

29
   DHS-OIG, AdherenceftofAcquisitionfManagementfPoliciesfWillfHelpfReducefRisksftofthefTechnologyf

IntegrationfProgram, (OIG-12-107, August 2012). 




www.oig.dhs.gov                                       17                                          OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


The Department has created an Acquisition Workforce Development initiative to
improve its acquisition workforce. This initiative includes expanding training
opportunities and offering certification programs in Cost Estimating, Program Financial
Management, Life Cycle Logistics, and Test and Evaluation and Systems Engineering.
When the outcomes of this initiative are achieved the Department’s acquisition
workforce will be ready to acquire and sustain the systems and services necessary to
secure the homeland, while ensuring that the Department and taxpayers received the
best value for the expenditure of public resources.


Financial Management
Overview
The Federal Government has a fundamental responsibility to be an effective steward of
taxpayer dollars. Sound financial practices and related management operations are
critical to achieving the Department’s mission and to providing reliable, timely financial
information to support management decision-making throughout DHS. Congress and
the public must be confident that DHS is properly managing its finances to minimize
inefficient and wasteful spending, make informed decisions to manage government
programs, and implement its policies.

Although DHS produced an auditable balance sheet and statement of custodial activity
in FY 2011 and obtained a qualified opinion on those statements, challenges remain for
the Department’s financial management. Achieving a qualified opinion resulted from
considerable effort by DHS employees, rather than through complete implementation of
a reliable system of control over financial reporting. As a result of DHS obtaining a
qualified opinion on its balance sheet and statement of custodial activity in FY 2011, the
scope of the FY 2012 audit was increased to include statements of net cost, changes in
net position, and combined statement of budgetary resources.


Challenges

Managerial Cost Accounting

The Department does not have the ability to provide timely cost information by major
program, and by strategic and performance goals. The Department’s financial
management systems do not allow for the accumulation of costs, at the consolidated
level, by major program, nor allow for the accumulation of costs by responsibility
segments directly aligned with the major goals and outputs described in each entity’s
strategic and performance plan. Further, the Department needs to develop a plan to


www.oig.dhs.gov                                 18                                     OIG-13-09
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


implement managerial cost accounting, including necessary information systems
functionality. Currently, the Department must use manual data calls to collect cost
information from the various components and compile consolidated data.

OIG conducted several audits during FY 2012 and identified a number of components
that did not have the ability to provide various cost data when requested. For example:
   •	 During the audit of TSA’s Aviation Channeling Service Provider program (OIG 12-
      132-AUD-TSA) we learned that TSA did not track and report all project costs
      related to the program. According to TSA program officials, it was impossible to
      provide exact costs because the expenditures were not tracked in detail.
   •	 During the audit examining CBP’s acquisition and conversion of H-60 helicopters
      (OIG 12-102-AUD-CBP), CBP officials received high-level cost information from
      the U.S. Army, but it did not include the detail necessary to adequately oversee
      the CBP H-60 programs. For example, the Army conducted approximately
      15,000 tests on CBP H-60 components, but CBP could not identify the tests that
      were completed or the specific costs. In addition, for each CBP H-60 helicopter,
      financial data from three sources listed a different total cost for each helicopter.
   •	 During the audit of CBP’s use of radiation portal monitors at seaports (OIG 12-
      033-AUD-CBP), we found instances in which the acquisition values for the
      monitors were incorrect and could not be supported.

Anti-Deficiency Act Violations

The Department continues to have challenges in complying with the Anti-Deficiency Act
(ADA). As of September 30, 2012, the Department and its components reported five
potential ADA violations in various stages of review, including one potential ADA
violation identified in FY 2012, which the Department is currently investigating. The
four other ADA violations involve: (1) expenses incurred before funds were committed
or obligated; (2) pooled appropriations to fund shared services; (3) a contract awarded
before funds had been re-apportioned; and (4) improper execution of the obligation and
disbursement of funds to lease passenger vehicles.

Financial Statement Audit

The following five items show the status of DHS’ effort to address internal control
weaknesses in financial reporting. These were identified as material weaknesses in the
FY 2011 independent audit of DHS’ consolidated balance sheet and statement of
custodial activity. All five material weaknesses remain in FY 2012.




www.oig.dhs.gov                                19                               	       OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



Financial Reporting

Financial reporting presents financial data on an agency’s financial position, its
operating performance, and its flow of funds for an accounting period.

In FY 2011 the USCG, USCIS, and TSA contributed to the material weakness in this area.
While some findings reported in FY 2011 were corrected, other findings at USCG and
TSA remained in FY 2012. Also, in FY 2012, new financial reporting findings were
identified at ICE.

As in the previous year, the auditors reported this year that the USCG does not have
properly designed, implemented, and effective policies, procedures, processes, and
controls surrounding its financial reporting process. The USCG uses three general
ledgers, developed over a decade ago. This legacy system has severe functional
limitations that contribute to its ability to address systemic internal control weaknesses
in financial reporting, strengthen the control environment, and comply with relevant
Federal financial system requirements and guidelines.

The auditors identified deficiencies that remain in some financial reporting processes at
TSA. For example, there are weak or ineffective controls in some key financial reporting
processes, of the management’s quarterly review of the financial statements, and in
supervisory reviews over journal vouchers. In addition, TSA has not fully engaged
certain program and operational personnel and data into the financial reporting process
and is not fully compliant with the United States Government Standard General Ledger
requirements at the transaction level. In recent years, TSA implemented several new
procedures and internal controls to correct known deficiencies, but some procedures
still require modest improvements to fully consider all circumstances or potential errors.
The control deficiencies contributed to substantive and classification errors reported in
the financial statements and discovered during the audit.

During FY 2012, the auditors noted financial reporting control weaknesses at ICE,
primarily resulting from expanded audit procedures for the full-scope financial
statement audit. ICE has not fully developed sufficient policies, procedures, and internal
controls for financial reporting. It also needs adequate resources to respond to audit
inquiries promptly, accurately, and with the ability to identify potential technical
accounting issues. ICE faces challenges in developing and maintaining adequate lines of
communication within its Office of Financial Management and among its program
offices. Communication between financial managers and personnel responsible for
contributing to financial reports was not sufficient to consistently generate clear and
usable information. In addition, ICE does not have sufficient coordination with IT




www.oig.dhs.gov                                 20                                     OIG-13-09
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


personnel, including contractors, who are responsible for generating certain financial
reports.
Information Technology Controls and Financial Systems Functionality

IT general and application controls are essential to effective and reliable reports of
financial and performance data.
During the FY 2011 financial statement audit, the independent auditor noted that the
Department remediated 31 percent of the prior year IT findings. The most significant FY
2011 weaknesses include: (1) excessive unauthorized access to key DHS financial
applications, resources, and facilities; (2) configuration management controls that are
not fully defined, followed, or effective; (3) security management deficiencies in the
certification and accreditation process and an ineffective program to enforce role-based
security training and compliance; (4) contingency planning that lacked current, tested
contingency plans developed to protect DHS resources and financial applications; and
(5) improperly segregated duties for roles and responsibilities in financial systems. These
deficiencies negatively affected the internal control over DHS’ financial reporting and its
operation and contributed to the FY 2011 financial management and reporting material
weakness.

For FY 2012, DHS made some progress in correcting the IT general and application
control weaknesses identified in FY 2011. DHS and its components remediated 46
percent of the prior year IT control weaknesses, with CBP, FEMA, and TSA making the
most progress in remediation. Although CBP and FEMA made progress in correcting
their prior year issues, in FY 2012, the most new issues were noted at these two
components. New findings resulted primarily from new IT systems and business
processes that came within the scope of the FY 2012 financial statement audit and that
were noted at all DHS components.

The auditors noted many cases in which financial system functionality inhibits DHS’
ability to implement and maintain internal controls, notably IT application controls
supporting financial data processing and reporting. As a result, ongoing financial system
functionality limitations are contributing to the Department’s challenge to address
systemic internal control weaknesses and strengthen the overall control environment.

In FY 2012, five IT control weaknesses remained and presented risks to the
confidentiality, integrity, and availability of DHS’ financial data: (1) access controls; (2)
configuration management; (3) security management; (4) contingency planning; and (5)
segregation of duties.

Property, Plant and Equipment




www.oig.dhs.gov                                  21                                       OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


DHS capital assets and supplies consist of items such as property, plant, and equipment
(PP&E) operating materials, as well as supplies, including boats and vessels at the USCG,
passenger and baggage screening equipment at TSA, and stockpiles of inventory to be
used for disaster relief at FEMA. The USCG maintains approximately 50 percent of all
DHS PP&E.

During FY 2011, TSA, the USCG, CBP, and the Management Directorate contributed to a
departmental material weakness in PP&E. During FY 2012, TSA and Management
Directorate substantially completed corrective actions in PP&E accounting processes. In
FY 2012, the USCG continued to remediate PP&E process and control deficiencies,
specifically those associated with land, buildings and other structures, vessels, small
boats, aircraft, and construction in process. However, remediation efforts were not fully
completed in FY 2012. The USCG had difficulty establishing its opening PP&E balances
and accounting for leases, primarily because of poorly designed policies, procedures,
and processes implemented more than a decade ago, combined with ineffective internal
controls and IT system functionality difficulties.

As in prior years, CBP has not fully implemented policies and procedures, or does not
have sufficient oversight of its adherence to policies and procedures, to ensure that all
PP&E transactions are recorded promptly and accurately, or to ensure that all assets are
recorded and properly valued in the general ledger. Further in FY 2012, ICE did not have
adequate processes and controls in place to identify internal-use software projects that
should be considered for capitalization.

Environmental and Other Liabilities

Liabilities are the probable and measurable future outflow or other sacrifice of
resources resulting from past transactions or events. The internal control weaknesses
reported in this area are related to various liabilities, including environmental, accounts
payable, legal, and accrued payroll and benefits.

The USCG’s environmental liabilities represent approximately $500 million or 75 percent
of total DHS environmental liabilities. The USCG completed the final phases of a multi-
year remediation plan to address process and control deficiencies related to
environmental liabilities later in FY 2012. However, the USCG did not implement
effective controls to ensure the completeness and accuracy of all underlying data
components used to calculate environmental liability balances. Further, the USCG did
not have documented policies and procedures to update, maintain, and review
schedules to track environmental liabilities (e.g., Formerly Used Defense Sites) for which
it was not primarily responsible at the Headquarters level. Additionally, the USCG did
not effectively implement existing policies and procedures to validate the prior year
accounts payable estimate.



www.oig.dhs.gov                                 22                                      OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security




Budgetary Accounting

Budgetary accounts are general ledger accounts for recording transactions related to
the receipt, obligation, and disbursement of appropriations and other authorities to
obligate and spend agency resources. DHS has numerous sources and types of budget
authority, including annual, multi-year, no-year, and permanent and indefinite
appropriations, as well as several revolving, special, and trust funds. Timely and
accurate accounting for budgetary transactions is essential to managing Department
funds and preventing overspending.

The USCG implemented corrective actions plans over various budgetary accounting
processes in FY 2012; however, some control deficiencies reported in FY 2011 remain,
and new deficiencies were identified. Although FEMA also continued to improve its
processes and internal controls over the obligation and monitoring process, some
control deficiencies remain.

As the financial service reporting provider, ICE is responsible for recording budgetary
transactions and administers budgetary processes across different types of funds at the
National Protection and Programs Directorate, Science and Technology Directorate,
Management Directorate, and Office of Health Affairs. In FY 2011, ICE identified and
began remediating deficiencies in the financial management system that impact
accounting transactions such as positing logic related to adjustments of prior year
unpaid, undelivered orders. In FY 2012, ICE continued to address these issues with
certain types of obligations.


Accomplishments
The Department continues to work on improving financial reporting. In FY 2012, DHS
received a qualified opinion on its financial statements. Improvements were seen at
various components. For example, USCIS corrected control deficiencies in financial
reporting that contributed to the overall material weakness. Likewise, TSA made
significant progress in addressing PP&E, removing its contribution to the Department’s
material weakness. Further, the USCG continued to make financial reporting
improvements in FY 2012 by completing its planned corrective actions over selected
internal control deficiencies. These remediation efforts allowed management to make
new assertions in FY 2012 related to the auditability of its financial statement balances.
In addition, management was able to provide a qualified assurance of internal control
over financial reporting in FY 2012.




www.oig.dhs.gov                                 23                                     OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


According to DHS’ Office of Financial Management, there is improved access to and
better quality of financial management information. The Department has implemented
business intelligence tools to help organize, store, and analyze data more efficiently.
According to the office, the Department can now take information from individual
budgets and display it for the enterprise, allowing views of DHS’ budget allocation by
mission area. Additionally, the Department is developing management tools (Decision
Support Tool) to help compile department-wide program cost information. The
Decision Support Tool should provide a central dashboard to assess and track the health
of acquisition projects, programs, and portfolios by showing key indicators of program
health, such as cost, funding, and schedule.



IT Management
Overview
As technology constantly evolves, the protection of the Department’s IT infrastructure
becomes increasingly more important. The Department’s Chief Information Officer
(CIO) has taken steps to mature IT management functions, improve IT governance, and
integrate IT infrastructure. Specifically, at the Department level, the CIO has increased
IT governance oversight and authority by reviewing component IT programs and
acquisitions. Although the Department’s documented processes were still draft, these
steps have enabled the CIO to make strategic recommendations to reduce costs and
duplication through activities such as infrastructure integration, as well as data center
and network consolidation.

Challenges
Several DHS components continue to face IT management challenges. For example, in a
November 2011 audit, we reported that USCIS delayed implementing its transformation
program because of changes in the deployment strategy and system requirements that
were insufficiently defined prior to selecting the IT system solution.30 Other challenges,
such as the governance structure, further delayed the program. As a result, USCIS
continued to rely on paper-based processes to support its mission, which made it
difficult for the component to process immigration benefits efficiently, combat identity
fraud, and provide other government agencies with information to identify criminals
and possible terrorists quickly. USCIS took steps to address some of these challenges by
moving to an agile development approach, instead of a “waterfall” process. This change

30
  DHS-OIG, U.S.fCitizenshipfandfImmigrationfServices’fProgressfinfTransformation (OIG-12-12, November
2011).



www.oig.dhs.gov                                       24                                          OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


improved program monitoring and governance and increased the focus on staffing 

issues. 

According to a June 2012 audit, CBP needs to address systems availability challenges, 

due in part to an aging IT infrastructure.31 Limited interoperability and functionality of 

the technology infrastructure made it difficult to fully support CBP mission operations. 

As a result, CBP employees chose to use alternative solutions, which may have hindered 

CBP’s ability to accomplish its mission and ensure officer safety. 


DHS has matured key information IT functions, such as portfolio management. 

However, in May 2012, we reported that recruiting people with the necessary skills to 

perform certain management functions remains a challenge. Also, DHS needs to 

improve its budget review process so that the CIO can identify and resolve issues before 

components finalize their IT investments.32 In addition, GAO reported in July 2012 that 

DHS had a vision for its new IT governance process, which included a tiered oversight 

structure with distinct roles and responsibilities throughout the Department. However, 

DHS’ IT governance policies and procedures were not finalized, which meant less 

assurance that its new IT governance would consistently support best practices and 

address previously identified weaknesses in investment management.33


CBP needs to improve its compliance with Federal privacy regulations. It also needs to 

establish an Office of Privacy with appropriate resources and staffing. Although DHS has 

a directive to ensure compliance with all privacy policies and procedures issued by the 

Chief Privacy Officer, an April 2012 audit disclosed that CBP made limited progress 

toward instilling a culture of privacy that protects sensitive personally identifiable 

information.34 Without a component-wide approach that minimizes the collection of 

employee Social Security numbers, privacy incidents involving these numbers will 

continue to occur. 


Accomplishments
The Department has created initiatives to improve IT Program Governance and
Information Security. These programs are designed to prioritize programs to meet
Department business needs, eliminate duplicate functions and systems, increase
program accountability and strengthen internal controls.35 Progress has been made to


31
   DHS-OIG, CBPfInformationfTechnologyfManagement:fStrengthsfandfChallenges (OIG-12-95, June 2012).
32
   DHS-OIG, DHSfInformationfTechnologyfManagementfHasfImproved,fButfChallengesfRemain (OIG-12-82,
May 2012).
33
   GAO, DHSfNeedsftofFurtherfDefinefandfImplementfItsfNewfGovernancefProcess (GAO-12-818, July 2012).
34
   DHS-OIG, U.S.fCustomsfandfBorderfProtectionfPrivacyfStewardship (OIG-12-78, April 2012).
35
   DHS, IntegratedfStrategyfforfHighfRiskfManagement:fImplementationfandfTransformation (June 2012).



www.oig.dhs.gov                                      25                                          OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


meet the goals of these initiatives and once fully achieved, the Department will have
increased accountability for its information technology programs.

According to DHS, the CIO has created performance measures to help establish
accountability and determine progress and accomplishments in IT Program
Governance. For example, one measure is the number of IT segments covered by
portfolio governance. Since IT segments represent a subset of the Department’s
mission and a business portfolio, this measure has resulted in an increase in the number
of IT functions that have governance in place. In the beginning of FY 2012, only 5 of 30
IT segments were covered by portfolio governance. By the end of FY 2012, the Office of
the CIO achieved its target to attain portfolio governance for 10 of 30 (33 percent) IT
segments. By the end of FY 2013, the office will capture an additional 5 segments to
reach its goal of 50 percent (15 of 30). By FY 2016, the goal is to have all 30 functional
areas with IT governance.



Grants Management
Overview
More than $35 billion in homeland security grants have been provided over the past 10
years to States, territories, local, and tribal governments to enhance capabilities to plan,
prepare for, prevent, respond to, and recover from natural disasters, acts of terrorism,
and other manmade disasters. In grants management, FEMA is challenged to ensure
the grants process is transparent, efficient, and effective. FEMA must also provide
oversight to a large number of geographically dispersed grant recipients to ensure
Federal funds are used for their intended purposes.

Challenges
FEMA can improve its efforts in strategic planning, performance measurement,
oversight, and sustainment, including tracking States’ milestones and accomplishments
for homeland security grant-funded programs. FEMA needs to improve its strategic
management guidance for State Homeland Security Grants. In our most recent Annualf
ReportftofCongress, we summarized State Homeland Security strategies and identified
deficiencies related to measurable goals and objectives. Although current guidance for
State Homeland Security strategies encourage revisions every 2 years, such revisions are
not required. Additionally, we identified State Homeland Security strategies that do not
have goals and objectives that are specific, measurable, achievable, results-oriented,
and time-limited. Without a measurable goal or objective, or a process to gather results
oriented data, States may not be assured that their preparedness and response


www.oig.dhs.gov                                 26                                      OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


capabilities are effective. States are also less capable of determining progress toward
goals and objectives when making funding and management decisions.

FEMA has not provided sufficient guidance on establishing metrics and measuring
performance. Our audits show that States continue to need the proper guidance and
documentation to ensure accuracy or track milestones. Providing guidance on the
appropriate metrics and requiring documentation of those metrics would help States
understand the effectiveness of each grant program.

FEMA also needs to strengthen its guidance on reporting progress in achieving
milestones as part of the States’ annual program justifications. We determined that
States’ milestones for these continuing investment programs could not be compared to
those in previous years’ applications. Additionally, the status of the previous year
milestones was not always included in applications. Because of these weaknesses,
FEMA could not determine, from the annual application process, whether a capability
had been achieved, what progress had been made, or how much additional funding was
needed to complete individually justified programs. Without this information, FEMA
could not be assured it made sound investment decisions.

Because of insufficient information on milestones and program accomplishments, FEMA
annually awarded Homeland Security Grant Program funds to States for ongoing
programs without knowing the accomplishments from prior years’ funding or the extent
to which additional funds were needed to achieve certain capabilities. Tracking
accomplishments and milestones are critical to making prudent management decisions
because of the changes that can occur between years or during a grant’s period of
performance.

FEMA needs to improve its oversight to ensure States are meeting their reporting
obligations in a timely manner so that the agency has the information it needs to make
program decisions and oversee program achievements. Improved oversight will also
ensure that States are complying with Federal regulations on procurements and
safeguarding of assets acquired with Federal funds. In our annual audits of the State
Homeland Security Program, we repeatedly identified weaknesses in the States’
oversight of grant activities. Those weaknesses include inaccuracies and untimely
submissions of financial status reports; untimely allocation and obligation of grant
funds; and not following Federal procurement, property, and inventory requirements.

Delays in the submission of Financial Status Reports may have hampered FEMA’s ability
to monitor program expenditures effectively and efficiently. They may also have
prevented the States from drawing down funds in a timely manner and ultimately
affected the functioning of the program. Delays also prevented the timely delivery of
plans, equipment, exercises, and training for first responders.



www.oig.dhs.gov                                27                                     OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



In our audits in FYs 2011 and 2012, we noticed an emerging trend with issues related to
program sustainment. States did not prepare contingency plans addressing potential
funding shortfalls when DHS grant funding was significantly reduced or eliminated. In
an era of growing budget constraints it is important to use resources for projects that
can be sustained. FEMA addressed this issue in its FY 2012 grant guidance by focusing
on sustainment rather than new projects.

Accomplishments
Although significant issues in grants management remain, progress has been made. In
most instances, audited States efficiently and effectively fulfilled grant requirements,
distributed grant funds, and ensured available funds were used. The States also
continued to use reasonable methodologies to assess threats, vulnerabilities,
capabilities, and needs, as well as allocate funds accordingly. Our audits have identified
several effective tools and practices used by some States that could benefit all States;
FEMA and the States also willingly shared information. FEMA has been responsive to
our recommendations and the agency is taking action to implement those
recommendations. At the Headquarters level, DHS is establishing a governance body
that will determine high-risk areas such as those cited above, develop strategies to
mitigate those risks and employ standardized formats, templates, and processes to
ensure consistent financial assistance activities throughout DHS. Some of these
standardized templates and processes are already in place.



Employee Accountability and Integrity
Overview
The smuggling of people and goods across the Nation’s borders is a large scale business
dominated by organized criminal enterprises. The Mexican drug cartels today are more
sophisticated and dangerous than any other organized criminal groups in our law
enforcement experience. Drug trafficking organizations are becoming increasingly more
involved in systematic corruption of DHS employees to further alien and drug smuggling.
The obvious targets of corruption are front line Border Patrol Agents and CBP officers;
less obvious are those employees who can provide access to sensitive law enforcement
and intelligence information, allowing the cartels to track investigative activity or vet
their members against law enforcement databases. Although the number of DHS
employees implicated in such enterprises is very small — less than 1 percent — the
damage from even one corrupt employee represents a significant management
challenge to the Department.


www.oig.dhs.gov                                 28                                     OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



Border corruption affects national security. As demonstrated by investigations led by
our investigators, border corruption may consist of cash bribes, sexual favors, or other
gratuities in return for allowing contraband or undocumented aliens through primary
inspection lanes; orchestrating illegal border crossings; leaking sensitive law
enforcement information to persons under investigation; selling law enforcement
intelligence to smugglers; and providing needed documents such as immigration papers.
Corrupt employees most often are paid not to inspect, as opposed to allowing
prohibited items, such as narcotics, to pass into the U.S. A corrupt DHS employee may
accept a bribe for allowing what appears to be simply undocumented aliens into the
U.S. while unwittingly helping terrorists enter the country. Likewise, what seems to be
drug contraband could be weapons of mass destruction, such as chemical or biological
weapons, or bomb-making material.

Challenges
We have seen a 95 percent increase in complaints against CBP employees alone since FY
2004 and a 25 percent increase from just fiscal year 2010 to 2011. In FY 2011, we
received and disposed of 17,998 allegations involving all DHS employees. As of July 15,
2012, we had 1,591 open cases. Corruption-related allegations are a priority of the
Office of Investigations, which opens 100 percent of all credible allegations of
corruption it receives. The majority of both complaints received and investigations
initiated by the OIG, however, are for allegations of other than corruption-related
activity.

Since FY 2004, our investigations have resulted in 358 CBP related convictions and 166
ICE related convictions. In one case, we received information that a CBP Officer was
using his position at a large urban airport to support an international drug trafficking
organization. Our investigators joined a multiagency investigation, led by the ICE Office
of Professional Responsibility (OPR), which resulted in the dismantling of the entire drug
trafficking organization and the arrest of multiple offenders, including the CBP Officer.
On at least 19 separate occasions, the CBP Officer had bypassed airport security using
his own badge to smuggle money and weapons for the drug traffickers. In December
2010, he was convicted and sentenced to 8 years in prison.

A Border Patrol Agent at the Sonoita, Arizona, Border Patrol Station, was observed
acting suspiciously while questioning others about the technology used to interdict
smugglers. The agent had only entered on duty at Sonoita in March 2009, shortly after
graduating from the Border Patrol Academy. We opened an investigation and
developed evidence that the agent had sold to a purported drug trafficker sensor maps,
trail maps, landmarks, and terminology used by the Border Patrol to combat smuggling.
Evidence showed that on at least four occasions, the agent accepted bribes totaling


www.oig.dhs.gov                                29                                     OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


around $5,000. The agent was arrested in October 2009. On August 12, 2010, he pled
guilty in Federal court to one count of bribery. On May 3, 2011, he was sentenced to 20
months incarceration, 36 months supervised release, and was ordered to pay restitution
in the amount of $5,500.

Proper filing of Office of Government Ethics (OGE) forms is vital to ensuring public trust
in high-level Federal officials and executive branch employees. In FY 2012, auditors
observed that the ethics management function at DHS is decentralized. Ethics officials
in each component’s Office of Counsel are delegated the authority to implement ethics
program requirements in their component. The Headquarters Ethics Office did not have
internal written policies and procedures to ensure required financial disclosure reports
were received, reviewed, and certified within the timelines established by OGE. The
auditors discovered that some employees were submitting forms late, ethics officials
were not certifying them timely, and in some cases, employees did not submit the
required forms.

Additionally, TSA reported that an attorney-advisor had backdated employee public
financial disclosure forms provided to the auditors in the prior year so the forms
appeared to comply with the OGE requirements. According to a DHS ethics official,
TSA’s management acted promptly to report this information and to rescind the
attorney’s ethics authority and to reassign the attorney, as well as his first and second
line supervisors to other work. The attorney subsequently resigned from TSA on the day
he was scheduled to be interviewed by TSA's Office of Inspection.

Accomplishments
Within DHS, the primary authority for investigating allegations of criminal misconduct by
DHS employees lies with OIG; ICE OPR has authority to investigate those allegations
involving employees of ICE and CBP. The components play a crucial, complementary
role to our, as well as, ICE OPR investigative function. The components focus on
preventive measures to ensure the integrity of the DHS workforce through robust pre-
employment screening of applicants, including polygraph examinations at CBP;
thorough background investigations of employees; and integrity and security briefings
that help employees recognize corruption signs and dangers. These preventive
measures are critically important in fighting corruption and work hand-in-hand with
OIG’s criminal investigative activities.

Congress recognized the importance of these complementary activities by enacting the
Anti-BorderfCorruptionfActfoff2010. This Act requires CBP, by January 4, 2013, to
administer applicant screening polygraph examinations to all applicants for employment
in law enforcement positions prior to hiring. CBP met this goal in October 2012. The
Act also requires CBP to initiate timely periodic background reinvestigations of CBP


www.oig.dhs.gov                                30                                     OIG-13-09
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


personnel. Agency statistics reveal that CBP declares 60 percent of applicants who are
administered a polygraph examination unsuitable for employment because of prior drug
use or criminal histories.

It is important to emphasize that the vast majority of employees within DHS are
dedicated civil servants focused on protecting the Nation. Less than one percent of
employees have committed criminal acts or other egregious misconduct.



Cyber Security
Overview
Cyber security is our Nation’s firewall because it is always on alert for constant threats
to networks, computers, programs, and data. It contains technologies, processes, and
practices that protect our systems from attack, damage, or unauthorized access.

Challenges
In FY 2012, we reviewed the Department’s efforts to guide components on securing
portable devices that connect to networks, as well as how several components were
applying this guidance; examined threats to IT security, including those from
international and insider sources; and performed the annual FederalfInformationf
SecurityfManagementfActfoff2002 (FISMA), as amended, audit for the Department to
determine its compliance with the development, documentation, and implementation
of a DHS-wide information security program.

Portable Device Security

In a June 2012 audit, we determined that DHS still faced challenges using portable
devices to carry out its mission and increase the productivity of its employees.36 For
example, some components had not developed policies and procedures to govern the
use and accountability of portable devices. Unauthorized devices were also connected
to workstations at selected components. Finally, DHS had not implemented controls to
mitigate the risks associated with the use of portable devices or to protect the sensitive
information that these devices store and process.

Another June report showed weaknesses in the component-wide adoption of FEMA’s
automated property management system, reporting of lost and stolen laptops,

36
     DHS-OIG, DHSfNeedsfTofAddressfPortablefDevicefSecurityfRisks (OIG-12-88, June 2012).



www.oig.dhs.gov                                          31                                 OIG-13-09
                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


implementation of hard drive encryption, use of a standardized laptop image, timely
installation of security patches, documentation of laptop sanitization, and accounting
for wireless networks.37 These weaknesses put laptops and the sensitive information
stored and processed on them at risk of exploitation.

In a May 2012 audit, we reported that USCIS’ laptop controls did not sufficiently
safeguard its laptops from loss or theft and did not protect the data on the laptops from
disclosure.38 Specifically, USCIS did not have an accurate and complete inventory of its
laptops, and its inventory data was not reported accurately and consistently in
electronic databases. Additionally, many laptops were not assigned to specific users;
USCIS did not provide adequate physical security for its laptops; and not all of USCIS’
laptops used the latest encryption software or operating systems and associated service
packs.

International Threats

In August 2012, we reported that the NPPD Office of Cybersecurity and Communications
needed to establish and implement a plan to further its international affairs program
with other countries and industry to protect cyberspace and critical infrastructure.39 For
more efficient and effective operations, NPPD should streamline its international affairs
functions to coordinate foreign relations better and consolidate resources. In addition,
the United States Computer Emergency Readiness Team needs to strengthen its
communications and information-sharing activities with and among its counterparts to
promote international incident response and the sharing of best practices.

Although TSA has shown progress, it can further develop its cyber security program by
implementing insider threat policies and procedures, a risk management plan, and
insider threat specific training and awareness programs for all employees. TSA can also
strengthen its situational awareness security posture by centrally monitoring all
information systems and augmenting current controls to better detect or prevent
instances of unauthorized removal or transmission of sensitive information outside of its
network.40

Federal Information Security Management Act


37
   DHS-OIG, ProgressfHasfBeenfMadefinfSecuringfLaptopsfandfWirelessfNetworksfatfFEMA (OIG-12-93, 

June 2012).

38
   DHS-OIG, U.S.fCitizenshipfandfImmigrationfServices’fLaptopfSafeguardsfNeedfImprovements (OIG-12-83, 

May 2012).

39
   DHS-OIG, DHSfCanfStrengthenfItsfInternationalfCybersecurityfPrograms (OIG-12-112, August 2012).

40
   DHS-OIG, TransportationfSecurityfAdministrationfHasfTakenfStepsfTofAddressfthefInsiderfThreatfButf

ChallengesfRemain (OIG-12-120, September 2012).




www.oig.dhs.gov                                       32                                           OIG-13-09
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Although the Department’s efforts have resulted in some improvements in its security
program, components are still not executing all Department’s policies, procedures, and
practices. DHS needs to improve its oversight of the components’ implementation of its
policies and procedures to ensure that all information security weaknesses are tracked
and remediated, and to enhance the quality of system authorizations. Other
information security program areas also need improvement including configuration
management, incident detection and analysis, specialized training, account and identity
management, continuous monitoring, and contingency planning.

Accomplishments
DHS and its components have taken actions to govern, track, categorize, and secure
portable devices in support of their missions. Specifically, DHS and some components
have developed policies, procedures, and training on the use of portable devices.
Additionally, some components include portable devices as part of overall accountable
personal property inventory. FEMA has improved its inventory and configuration
management controls to protect its laptop computers and the sensitive information it
stores and processes. It has also implemented technical controls to protect the
information stored on and processed by its wireless networks and devices.
Threats to, and emanating from, cyberspace are borderless and require robust
engagement and strong partnerships with countries around the world. Thus, the NPPD
has established multiple functions to support its international affairs program, to
promote cyber security awareness and foster collaboration with other countries and
organizations. To foster collaboration and develop international cyber security
partnerships, NPPD and its subcomponents participate in international cyber exercises,
capacity building workshops, and multilateral and bilateral engagements. The
directorate also uses innovative technologies to share cyber data with its partner
nations.

TSA’s progress in addressing the IT insider threat is evidenced by its agency-wide Insider
Threat Working Group and Insider Threat Section responsible for developing an
integrated strategy and program to address insider threat risk. Further, TSA conducted
insider threat vulnerability assessments that included personnel, physical, and
information systems at selected airports and offsite offices, as well as reviews of
privileged user accounts on TSA unclassified systems. Additionally, TSA has
strengthened its Security Operations Center responsible for day-to-day protection of
information systems and data that can detect and respond to insider threat incidents.

The FederalfInformationfSecurityfManagementfActfevaluation showed that the
Department continued to improve and strengthen its security program.41 Specifically,

41
     Title III of the E-GovernmentfActfoff2002, Public Law 107-347.



www.oig.dhs.gov                                            33                          OIG-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


DHS implemented a performance plan to improve in four key areas: remediation of
weaknesses in plans of action and milestones, quality of certification and accreditation,
annual testing and validation, and security program oversight.


OIG Focus in 2013
In planning projects for FY 2013, we have placed particular emphasis on major
management challenges, while aligning our work with DHS’ missions and priorities in its
StrategicfPlanfforfFiscalfYearsf2012fThroughf2016.f In addition, we will respond to
legislative mandates, as well as undertake congressionally requested projects that may
arise. DHS’ mission is to prevent terrorism and enhance security, secure and manage
our borders, enforce and administer our immigration laws, safeguard and secure
cyberspace, and ensure resilience to disaster. The Department places priority on
providing essential support to national and economic security and on maturing and
becoming stronger.

In the mission areas of intelligence, transportation security, border security,
infrastructure protection, and disaster preparedness and response, we are planning
reviews of TSA, CBP, and FEMA, among other components and directorates. In addition
to projects already in progress, our upcoming work will cover various aspects of airport
security and passenger screening, securing our land borders, and disaster assistance.
We also have work underway and are planning to review programs at USCIS, the USCG,
and ICE. In the area of accountability, we are examining or plan to examine DHS’ and its
component’s and directorate’s controls over acquisitions and critical financial systems
and data, information security, privacy stewardship, management of disaster
preparedness grants, and cyber security, among other mandated and discretionary
reviews.

Although not all planned projects may be completed in the upcoming fiscal year, we will
continue to work with DHS to enhance effectiveness and efficiency and prevent waste,
fraud, and abuse.




www.oig.dhs.gov                                34                                     OIG-13-09
                  OFFICE OF INSPECTOR GENERAL
                    Department of Homeland Security



Appendix A
Management Comments to the Draft Report




www.oig.dhs.gov                    35                 OIG-13-09
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


                                                                                       U.S. Depll1ment 01 Hornelilnd Suuri!),



                                                                               "\'9
                                                                                7. '
                                                                                       WI.binliton, DC 20528



                                                                                            Homeland
                                                                                        1   Security
                                                   November 1,2012


         Charles K. Edwards
         Acting Inspector General
         Office of Inspector General
         u.s. Department of Homeland Security
         245 Murray Lane SW, Building 41 0
         Washington, DC 2052&

         Re: OIG Draft Report: "Major Management Challenges Faci.ng the Department of Homeland
             Security, Fiscal Year (FY) 20 12" (Project No. 12-169-AUD-NONE)

         D~ar   Mr. Edwl::Irds:

                Thank you for the opportunity to review and comment on this draft report. rhe U.S.
         Department of Homeland Security (DHS) appreciates the Office of Inspector General's (OIG's)
         perspective on the most serious management and perfonnance challenges fac ing the Department.
         A more detailed response is provided in the Department's FY 2012 Annual Financial Report
         (AFR).

                This month marks the tenth anniversary of the crcation of DHS, the largest federal
         reorganization since the formation of the Department of Defense. Since its inception, DHS has
         made significant progress becoming a more effective and integrated Department, strengthening
         the homeland security enterprise. and building a more secure America that is better equipped to
         confront the range of threats our Nation faces. As Secretary Napolitano has stated, "America is a
         stronger. safer, and more resilient country because of the work DHS and its many partners do
         every day."

                 The Department continues to grow and mature by strengthening and building upon
         existing capabilit ies, e nham.:ing partne rships acrnss a ll levt:1s of government and with the private
         sector, and stream lining operations and increasing efficiencies within its five key mission areas:
         (I) preventing terrorism and enhancing security, (2) securing and managing our borders, (3)
         enforcing and adm inistering our immigration laws, (4) safeguard ing and securing cyberspace,
         and (5) ensuring resilience to disasters.

                 Through frameworks such as the Quadrennial Homeland Security Review, BotTOm-Up
         Review, and DHS Stralegic PlanJor FYs 2012- 2016, DHS has developed ::lOd implemented a
         comprehensive, strategic management approach to cnhance Department-wide maturation and
         integration. DHS has also made significant progress to integrate and transform its management
         func tions through the il1fegraled SlraJegy, first published in January 2011 , which presents a clear
         roadmap to transfonn management by enhancing both vertical and horizontal integration. The
         strategy focuses on all management disciplines, especially human capital, acquisition, and
         financial management.




www.oig.dhs.gov                                                 36                                                              OIG-13-09
                              OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




                 The Under Secretary for Managemcnt has led the Department-wide effon to coalesce,
         or integrate, the Department 's management infrastructure. The Depanment's strategy for the
         past 2 years has been to make substantial progress to implement 18 spec ific init iatives, each
         with clear action plans and performance metrics. By doing so, the degree of risk has been
         reduced proponionately and the Depanment is moving closer to a lransfonnative state. To
         date, nearly 65 percent of the stated outcomes have been ;'mostly" or ;' ful\y" addressed and the
         Department is on track to meet the outcome goals for the remaining outcome metrics.

                 Again, thank you for the opportunity to review and comment on this draft report. This
         report and the Department's detailed management response to the issues identified will be
         included in the Department's FY 2012 AFR, as required by law. Technical comments on the
         draft were previously provided under separate cover for OIG consideration.

                Please feel free to contac t me if you have any questions. We look forward to working
         with you in the future.

                                               Sincerely,



                                              t~~m~er
                                               Director
                                               Departmental GAO-OIG Liaison Office




                                                            2




www.oig.dhs.gov                                                 37                                           OIG-13-09
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix B
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Under Secretary for Management
Chief Financial Officer
Chief Information Officer
Chief Security Officer
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as
appropriate




www.oig.dhs.gov                                  38              OIG-13-09
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
